                 OFFICE OF INSPECTOR GENERAL


                                                         Catalyst for Improving the Environment


Audit Report




                Wrangell Cooperative Association
                Reported Outlays Under EPA Grants
                GA980448-01 and GA970335-01

                Report No. 2005-4-00056


                April 19, 2005




This audit report contains findings that describe problems the Office of Inspector General (OIG) has
identified and corrective actions the OIG recommends. The report represents the opinion of the OIG,
and findings contained in this report do not necessarily represent the final EPA position. Final
determinations on matters in this report will be made by EPA managers in accordance with established
audit resolution procedures.
Report Contributors:                     Keith Reichard
                                         Jan Lister




Abbreviations

CFR                Code of Federal Regulations

EPA                Environmental Protection Agency

OIG                Office of Inspector General

OMB                Office of Management and Budget

Recipient          Wrangell Cooperative Association
                        U.S. Environmental Protection Agency                                              2005-4-00056

                                                                                                          April 19, 2005

                        Office of Inspector General


                        At a Glance
                                                                         Catalyst for Improving the Environment

Why We Did This Review            Wrangell Cooperative Association Reported Outlays
At the request of the             Under EPA Grants GA980448-01 and GA970335-01
Environmental Protection
Agency (EPA), Region 10, we
conducted this examination to      What We Found
express an opinion on the
reported outlays on the
Financial Status Reports, and     The recipient did not maintain a labor distribution system as required by Office of
to determine whether the          Management and Budget (OMB) Circular A-87. Consequently, we questioned labor
recipient was managing its        and fringe benefit outlays of $140,275 and $59,823, respectively. We also
grants in accordance with         questioned unallowable travel and other outlays of $3,149 and $2,744, respectively.
applicable requirements.          Further, we noted that the recipient did not (1) submit timely and accurate
                                  performance reports, and (2) draw down EPA grant funds based on immediate cash
                                  needs.
Background

EPA awarded two General           What We Recommend
Assistance Program grants to
the recipient totaling            We recommend that EPA recover the Federal share questioned of $204,059 (the
$465,000. These grants were       totals of the four amounts mentioned above, minus a $1,932 offset). We also
for environmental capacity        recommend that if EPA provides any future grants to the recipient, that the recipient
development.                      (1) establish an adequate labor distribution system, as required by OMB Circular
                                  A-87; (2) submit adequate performance reports; and (3) draw down EPA grant funds
                                  for immediate cash needs only.




For further information,
contact our Office of
Congressional and Public
Liaison at (202) 566-2391.

To view the full report,
click on the following link:

www.epa.gov/oig/reports/2005/
20050419-2005-4-00056.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                       OFFICE OF
                                                                                  INSPECTOR GENERAL




                                          April 19, 2005

MEMORANDUM

SUBJECT:	       Report No. 2005-4-00056
                Wrangell Cooperative Association Reported Outlays Under
                EPA Grants GA980448-01 and GA970335-01

FROM:	          Michael A. Rickey /s/ Michael A. Rickey
                Director, Assistance Agreement Audits

TO:	            Ron Kreizenbeck
                Acting Regional Administrator, Region 10

This is the final report to express on opinion on the outlays reported through June 30, 2003, by
the Wrangell Cooperative Association (recipient) under Environmental Protection Agency (EPA)
grants GA980448-01 and GA970335-01. We conducted this examination in response to Region
10's request dated March 29, 2004, to investigate issues raised in a hotline complaint. The
complaint alleged financial mismanagement and misuse of Federal grant funds awarded to the
recipient. This report addresses all the relevant issues identified in the hotline complaint.

In order to address the allegations, we examined the recipient’s reported outlays under the two
EPA grants. The grants were authorized under the Indian Environmental General Assistance
Program Act of 1992 to help the recipient establish an environmental program.

We have questioned over $200,000 of labor and related fringe benefits because the recipient did
not maintain a labor distribution system as required by Office of Management and Budget (OMB)
Circular A-87. We also questioned almost $5,900 of unallowable travel and other outlays. In
addition, we found that the recipient did not submit adequate and timely performance reports, and
drew down Federal funds in advance of actual cash needs.

The report represents the opinion of the Office of Inspector General (OIG), and the findings
contained in this report do not necessarily represent the final EPA position. The OIG has no
objection to the release of this report to any member of the public upon request.

On January 18, 2005, we issued a draft report to the recipient for review and comment. The
recipient did not agree with the report findings. We have included the recipient’s response to the
draft report in Appendix B (we did not include the recipient’s attachments but they are available
upon request). The response is also summarized after each finding with our comments.
Action Required

In accordance with EPA Manual 2750, the action official is required to provide this office with a
proposed management decision within 120 days of the date of this transmittal memorandum. The
proposed management decision must address each finding and recommendation. Where you
disagree with a finding or recommendation, please provide alternative actions and support or
precedence for your position

If you have questions concerning this report, please contact Keith Reichard, at (312) 886-3045.
                                    Table of Contents

At a Glance


Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   1


Independent Auditor’s Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               2


Schedule of Reported Federal Outlays and Results of Audit for

Grants GA980448-01 and GA970335-01 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         3


Report of Non-Compliance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               8




 Appendices
         A         Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 


         B         Recipient’s Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 


         C         Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 





                                                                i
                                       Background

The Environmental Protection Agency (EPA) awarded two grants to the Wrangell Cooperative
Association (recipient) under the Indian Environmental General Assistance Program Act of 1992
to help the recipient establish an environmental program. The following table provides some
basic information about the authorized project periods and the funds awarded under each
agreement.

                       Award        EPA           Recipient      Total              Project
        Grants          Date        Share          Share        Awarded             Period

     GA980448-01      09/29/99    $257,500*        $7,500       $265,000       10/01/99 - 07/31/02

     GA970335-01      09/11/02     $200,000           $0        $200,000       08/01/02 - 07/31/04

     * The EPA share is 97 percent of all approved costs up to and not exceeding $257,500.



Grant GA980448-01: This grant was for the recipient to build environmental capacity by
establishing an environmental protection program that will identify environmental issues and
determine long-term strategies and goals.

Grant GA970335-01: This grant was for the recipient to identify locations containing potential
contaminants and to protect the watershed from the contaminants. The agreement involves
developing (1) a comprehensive environmental ordinance and enforcement strategy, and (2) a
comprehensive community environmental plan.

To help the reader understand the report, we define key terms below:

   Reported Federal Outlays:	                 Program expenses or disbursements identified by the
                                              recipient on the Financial Status Report (Standard
                                              Form 269A).

   Unallowable Costs:	                        Outlays that are (1) contrary to a provision of a law,
                                              regulation, agreement, or other documents governing
                                              the expenditure of funds; (2) not supported by
                                              adequate documentation; or (3) not approved by a
                                              responsible agency official.




                                                  1
                        Independent Auditor’s Report
We have examined the total outlays reported by the recipient under the EPA grants, as shown
below:

                                                  Financial Status Reports
                                            Date          Period         Federal
                            Grants        Submitted       Ending    Outlays Reported

                         GA980448-01        9/13/04       6/30/03      $257,500

                         GA970335-01        5/28/04       6/30/03       $75,000

                             Total                                     $332,500



The recipient certified that the Federal outlays reported on the Financial Status Reports,
Standard Form 269A, were correct and for the purposes set forth in the agreements. The
preparation and certification of the financial status reports are the responsibility of the recipient.
Our responsibility was to express an opinion on the reported outlays based on our examination.

Our examination was conducted in accordance with the Government Auditing Standards, issued
by the Comptroller General of the United States, and the attestation standards established for the
United States by the American Institute of Certified Public Accountants. We examined, on a test
basis, evidence supporting the reported outlays, and performed such other procedures as we
considered necessary in the circumstances (see Appendix A for details). We believe that our
examination provides a reasonable basis for our opinion.

We questioned labor and related fringe benefits of $140,275 and $59,823, respectively because
the recipient did not maintain a labor distribution system as required by Office of Management
and Budget (OMB) Circular A-87. We also questioned unallowable travel and other outlays of
$3,149 and $2,744, respectively.

In our opinion, because of the effects of the matters discussed in the preceding paragraph, the
reported Federal outlays on the Financial Status Reports do not present fairly, in all material
respects, the allowable outlays incurred in accordance with the terms and conditions of the
agreements and applicable EPA regulations. Details of our audit are included in the Schedule of
Reported Federal Outlays and Results of Audit for Grants GA980448-01 and GA970335-01 that
follows.

/s/ Keith Reichard for
Office of the Inspector General
U.S. Environmental Protection Agency
September 29, 2004



                                                      2
  Schedule of Reported Federal Outlays and Results of Audit
         for Grants GA980448-01 and GA970335-01


                                           Reported Federal Outlays
                                               Grants                                 Questioned
             Cost Element         GA980448-01        GA970335-01           Total       Outlays   Note

             Personnel                 $106,453             $33,822      $140,275        $140,275       1

             Fringe                      $43,478            $16,345        $59,823         $59,823      2

             Travel                      $41,892               $5,474      $47,366          $3,149      3

             Supplies                    $13,512               $3,067      $16,579               $0

             Contractual                 $34,617               $7,781      $42,398               $0

             Other                       $19,480               $8,511      $27,991          $2,744      3

                Subtotal               $259,432             $75,000      $334,432        $205,991

             Less: Outlays              ($1,932)                   $0     ($1,932)        ($1,932)      4
             in excess of the
             grant ceiling

             Total                     $257,5001            $75,000      $332,500        $204,059




Note 1:	          We questioned personnel outlays of $140,275 because the recipient did not
                  maintain support for its salaries and wages required by OMB Circular A-87,
                  Attachment B, paragraph 11(h). As a result, the labor costs recorded in the general
                  ledger were not allowable in accordance with the grant agreements and OMB
                  Circular A-87.

                  The requirements of 40 CFR 31.22 provide that Indian tribal governments shall
                  follow the provisions of OMB Circular A-87 for determining allowable costs.
                  That Circular requires that charges to awards for salaries and wages, whether
                  treated as direct costs or indirect costs, will be based on documented payrolls
                  approved by a responsible official of the organization. The Circular also provides
                  that when employees work on multiple activities or cost objectives2, a distribution
                  of their salary or wages will be supported by personnel activity reports which must
                  meet the following standards:

         1
          The recipient’s matching share of the total project costs was $7,500. The recipient did not include its
match in the reported outlays; however, we confirmed that the recipient met its $7,500 match.
         2
          A cost objective is defined in OMB Circular A-87 as a function, organization subdivision, contract, grant,
or other activity for which cost data are needed and for which costs are incurred.

                                                           3
(a)	   The reports must reflect an after-the-fact distribution of the actual activity
       of each employee. Budget estimates (i.e., estimates determined before the
       services are performed) do not qualify as support for charges to awards.

(b)	   Each report must account for the total activity for which employees are
       compensated.

(c)	   The reports must be prepared at least monthly and must coincide with one
       or more pay periods, and be signed by the employee.

The recipient’s employees worked on other Federal and State projects but did not
maintain any personnel activity reports or labor distribution records to identify the
time and effort expended on these projects. The recipient generally charged all
labor costs for the Office of Environmental Planning to EPA grants, and argued
that the time spent on the other Federal and State projects was generally incurred
during non-duty hours and were immaterial. The recipient further stated that some
but not all employees prepared time sheets. However, these time sheets were
inadequate because no final cost objectives were identified. Instead the time
sheets only identified the hours worked during a given pay period for the purpose
of paying the employees. Without adequate records to support the time spent on
EPA grants and other Federal and State projects, the reported personnel outlays are
not allowable.

Recipient’s Response

We do not agree with this finding. EPA did not inform us of the OMB Circular
A-87 requirements for time sheets, and EPA provided little, if any, guidance on
any type of grant administration procedures, program development or
administrative training to ensure compliance with a multitude of regulations. The
need for time sheets was not mentioned, and had there been communication that
time sheets were required, this simple procedure would have been implemented.
We wrongly assumed that the salaries and wages presented in the EPA approved
and funded work plan measured against project results and quarterly goals would
suffice for accountability. We did not try to account for the time spent for the
director or part-time staff by task. We considered the director position salaried per
grant specifications in the approved work plan, so all work was directed toward the
goal of developing a sustainable tribal environmental program.

OIG’s Comments

The recipient did not submit adequate support for the questioned labor and related
fringe benefits as required by OMB Circular A-87, Attachment B, paragraph 11(h).
Further, we do not agree that EPA has any responsibility to manage the grant
projects for the recipient. In submitting its grant application, the recipient certified
that it has the institutional, managerial, and financial capability to ensure the

                                   4
                proper planning, management, and completion of the project described in the
                application. The recipient also certified that it would comply with all applicable
                requirements of Federal laws and regulations. Since the recipient did not maintain
                sufficient records to properly identify the actual labor costs incurred for the grants,
                the reported outlays are unallowable for Federal grant participation.


Note 2:	        We questioned fringe benefit costs of $59,823 which represent the claimed fringe
                benefits applicable to the questioned direct labor of $140,275.

                Recipient’s Response

                Refer to recipient’s response to Note 1 above.

                OIG’s Comments

                Refer to the OIG’s comments to Note 1 above.


Note 3:	        We questioned travel and other outlays of $3,149 and $2,744, respectively. To be
                allowable under Federal awards, OMB Circular A-87 provides that costs must be
                necessary, reasonable, allocable, and adequately documented. The recipient
                could not demonstrate that these costs were allowable. Accordingly the outlays
                have been questioned. The questioned travel and other outlays are detailed below
                in Tables 1 and 2.


                                                      Table 1

                                                        Questioned Travel Outlays

                                                          Grant          Grant
               Description         Check    Date       GA980448-01    GA970335-01    Total    Notes

           Shakes Island Project   1488    01/15/03                         $1,243   $1,243    a

           Shakes Island Project   1443    11/06/02                         $1,029   $1,029    a

           Shakes Island Project   1342    07/15/02           $446                    $446     a

           Roads Project           1539    03/06/03                           $406    $406     a

           Late Payment Fee        1202    11/30/01             $25                    $25     b

           Total Questioned                                   $471          $2,678   $3,149




                                                         5
                                      Table 2

                                                  Questioned
                                                 Other Outlays

                                                    Grant
          Description         Check    Date      GA970335-01     Notes

     Mediation                1540    03/06/03          $1,390     c

     First Nations - Design   1541    03/13/03           $720    a, d

     Election                 1553    04/11/03           $326     e
                              1554
                              1555
                              1556

     Shakes Island Project    1387    09/03/02           $308     a

     Total Questioned                                   $2,744




a.      The questioned outlays represent costs on other unrelated projects. These
        costs are not allocable to the EPA grants, and are unallowable.

b.      The questioned outlay represents late payment fees. Outlays related to the
        recipient’s failure to make payments on time are not necessary or reasonable
        outlays, and are unallowable.

c.      The questioned outlay represents the costs to mediate conflicts between
        board members. These costs are not reasonable, necessary, or allocable to
        the grant, and are unallowable.

d.      The outlay was unsupported. The $720 payment was for unknown services,
        and was paid to a company purportedly owned by the board president’s wife.
        The recipient did not have an invoice, purchase order, or any other
        documentation to support the payment. Further, the payment may have
        violated the conflict of interest provisions of Title 40 CFR 31.36(b). Without
        adequate supporting documentation, the outlay has been questioned.

e.      The recipient claimed various outlays associated with board member
        elections. These costs are not allocable to the EPA grants, and are
        unallowable.

Recipient’s Response

The recipient did not specifically address these findings.




                                         6
Note 4:   The recipient exceeded the grant ceiling by $1,932 due to an accounting error.
          Accordingly, we have offset the questioned cost by the $1,932 amount.

          Recipient’s Response

          The recipient did not specifically address this finding.



Recommendation 1

          We recommend that EPA recover the Federal share questioned of $204,059.




                                            7
                         Report of Non-Compliance

The recipient did not (1) have an adequate labor distribution system as required by OMB Circular
A-87, (2) submit complete and timely performance reports as required by Title 40 CFR 31.40, and
(3) draw down EPA grant funds based on its actual and immediate cash need as required by Title
40 CFR 31.21.

        Inadequate Labor Distribution Systems

       The recipient’s labor distribution system did not meet the requirements of OMB Circular
       A-87. Refer to Note 1– Schedule of Reported Federal Outlays and Results of Audit for
       Grants GA980448-01 and GA970335-01 on page 3 for additional details.

       Recommendation 2

       If EPA provides any future Federal funds to the recipient, we recommend that EPA
       require the recipient to establish an adequate labor distribution system that complies with
       the requirements of OMB Circular A-87, Attachment B, paragraph 11(h).


        Inadequate and Untimely Performance Reports

       For grant GA970335-01, the recipient did not submit complete or timely quarterly
       performance reports to EPA as required by Title 40 CFR 31.40 and the grant agreement.
       The provisions of Title 40 CFR 31.40 and the grant agreement required that the recipient
       submit quarterly performance reports to EPA and include (1) a comparison of actual
       accomplishments to the objectives in the agreement; (2) reasons for slippage from
       estimated time and performance objectives; (3) additional pertinent information, as
       necessary; and (4) significant developments such as problems, delays, or adverse
       conditions.

       On May 5, 2004, EPA issued an enforcement letter to the recipient, informing the
       recipient that it was not in compliance with Federal regulations governing reporting
       activities under the grant. After EPA issued the enforcement letter, the recipient
       submitted all the missing quarterly performance reports. However, these reports were
       inadequate: they had little informative data, each report mirrored the prior reports with
       little or no additional data included, and the reports did not address all the significant
       problems and delays encountered.

       Specifically, the reports did not identify problems and turnover of the recipient’s
       management structure. For instance, in February 2003, the director and accountant in the
       environmental office performing the grant work were released. The recipient did not
       inform EPA in the reports that the director and accountant were replaced in March 2003,
       nor did the recipient ensure that the new director and accountant were qualified to perform


                                                 8
the required functions under the grant. Also, the recipient did not inform EPA in the
reports of the ultimate closure of the environmental office in November 2003.

Due to the lack of pertinent reporting from the recipient: (1) EPA did not have sufficient
information to understand the problems occurring with the recipient; (2) EPA was unable
to assess the recipient’s performance in meeting the grant’s objectives; and (3) EPA was
unable to determine the proper actions to take with regard to the unexpended funds
remaining in the grant.

Recipient’s Response

From April 2000 to February 2003, all quarterly reports were timely and accurately
submitted. Problems with reporting began when new staff was hired after February 2003.

OIG’s Comments

Regardless of which staff members were managing the projects, the fact remains that the
quarterly performance reports for grant GA970335-01 were not submitted timely. In
addition, the reports that were submitted lacked informative data, and did not identify any
of the ongoing problems, including the turnover of the recipient’s management structure
and the closure of the environmental office.

Recommendation 3

If EPA provides any future Federal funds to the recipient, we recommend that EPA ensure
that the recipient provide adequate performance reports that comply with the provisions of
Title 40 CFR 31.40.


Inappropriate Cash Draws

The recipient drew down EPA grant funds in advance of the actual need. The grant
regulations in Title 40 CFR 31.21 require the recipient to follow the basic standards of
Title 31 CFR 205 in obtaining payments under the grants. The provisions of Title 31 CFR
205.20 provide that cash advances shall be limited to the minimum amounts needed and
shall be timed to be in accord only with the actual and immediate cash requirements in
carrying out a program or project. The timing and amount of cash advances shall be as
close as is administratively feasible to the actual cash outlay for direct program costs and
the proportionate share of any allowable indirect costs.

We reviewed nine cash draws paid by EPA on agreements GA980448-01 and
GA970335-01 and found that the recipient did not disburse funds timely for any of those
cash draws. The recipient generally drew Federal funds and deposited them in their bank
account for use over periods ranging from 8 to 168 days after the Federal funds were
received. This practice occurred because the recipient lacked written procedures to
minimize the time elapsing between the transfer of Federal funds and the redemption of

                                         9
payment. This practice results in the Federal government incurring unnecessary interest
costs on funds drawn down too early, and can result in overpayments.

Recipient’s Response

We agree that we drew EPA grant funds in advance of actual need. Prior to electronic
deposits, the Indian Environmental General Assistance Program (IGAP) participants were
asked by EPA to draw more down at one time to lessen the work load on the Grants Office
which was struggling to keep up with new tribal applications and requests. In addition,
draw downs were approved at several levels within EPA before being allocated to the
tribe. All funding was professionally allocated strictly according to the grant.

OIG’s Comments

The recipient concurs with this finding.

Recommendation 4

If EPA provides any future grants to the recipient, we recommend that EPA ensure that
the recipient comply with the provisions of Title 40 CFR 31.21 and Title 31 CFR 205 and
draws funds for immediate cash needs only.




                                           10
                                                                                     Appendix A

                           Scope and Methodology
We performed our examination in accordance with the Government Auditing Standards, issued by
the Comptroller General of the United States, and the attestation standards established by the
American Institute of Certified Public Accountants. We also followed the guidelines and
procedures established in the “Office of Inspector General Project Management Handbook,”
dated June 21, 2004.

We conducted this examination to express an opinion on the reported outlays, and determine
whether the recipient was managing its EPA agreements in accordance with applicable
requirements. To meet these objectives, we asked the following questions:

       1.	     Is the recipient’s accounting system adequate to account for agreement funds in
               accordance with Title 40 CFR 31.20?

       2.	     Does the recipient maintain an adequate labor distribution system that conforms to
               requirements of OMB Circular A-87?

       3.	     Is the recipient properly drawing down agreement funds in accordance with the
               grant regulations?

       4.	     Is the recipient complying with its reporting requirements under Title 40 CFR
               31.40 and 31.41?

       5.	     Are the costs reported under the agreements adequately supported and eligible for
               reimbursement under the terms and conditions of the cooperative agreements,
               OMB Circular A-87, and applicable regulations?

In conducting our examination, we interviewed EPA personnel and reviewed project files to
understand the grants and obtained the necessary grant information. We also interviewed
recipient personnel to obtain and understanding of the accounting system and the applicable
internal controls as they related to reported costs.

We reviewed management’s internal controls and procedures specifically related to our
objectives. Our examination included reviewing the recipient’s compliance with OMB Circular
A-87, Title 40 CFR Part 31, and the terms and conditions of the agreements. After gaining an
understanding of the recipient’s financial management system, we reconciled the reported costs
for each grant with the recipient’s general ledger. We also examined the reported costs on a test
basis to determine whether the costs were adequately supported and eligible for reimbursement
under the terms and conditions of the agreements and Federal regulations. We conducted our
field work from August 3, 2004, through September 29, 2004.




                                                11
                                                                                            Appendix B

                                Recipient’s Response
Comments for the Office of Inspector General Audit Report: Assignment No. 2004-000851

Wrangell Cooperative Association Reported Outlays under EPA Grants GA980448-01 and
GA970335-01

The following discussion was written by Paul Rushmore and Tis Peterman on be-half of the Wrangell
Cooperative Association.


Response to Recommendation 1:
“We recommend that EPA recover the Federal share questioned of $204,059” (page 6, line 8).

We do not agree with this finding.

As the director of the IRA Office of Environmental Planning (OEP) and administer of the IGAP program
for the Wrangell Cooperative Association (WCA) from April 2000 to February 2003, I feel obligated to
respond to the Office of Inspector General’s (OIG) findings that suggest EPA was harmed by WCA
during its administration of EPA Grants GA980448-01 and GA 970335-01. I would ask the review
committee to consider what OEP was able to accomplish in 2.5 years with the IGAP program
(GA980448-01) up until February 2003, and measure those accomplishments against all other Southeast
Alaska IGAP participants. All the environmental data we collected, the Memorandums of Understanding
(MOU) we signed with local, state and federal agencies to conduct multi-year projects, the grant writing
program, writing a successful Quality Assurance Project Plan for EPA approval, and the general
assistance we afforded the community and tribal members, directly pertained to EPA’s environmental
mission and was responsive to EPA program interest. The punishment recommended by the OIG for
lacking one element of the entire multi component program is excessive.

Inadequate Labor Distribution Systems (page 7, line 6).

In 2000-02 OEP was not informed to the conditions of OMB Circular A-87, though ignorance of the law
is no excuse. IGAP provided little, if ANY guidance on any type of grant administration procedures,
program development or administrative training to ensure compliance with the multitude of regulations.
Time sheets were never mentioned, not once; and it seems presumptuous to suggest that had I known time
sheets were required that I would not have implemented such a simple procedure. It would have been
helpful if an IGAP workshop on accountability requirements had been conducted rather than learn as I
went, then all of this could have been avoided. I wrongly assumed that the salaries and wages presented in
the EPA approved and funded Work Plan measured against project results and quarterly goals would
suffice for accountability. I believe the finding of “no misappropriation of funds” through a forensic audit
completed by OIG helps to substantiate this and shows due diligence on my part. By 2002 I had full
confidence in our accounting system, though without oversight or guidance by superiors, we had no idea
that records should have been kept differently. This is simply a part of building tribal capacity as per
EPA’s grant requirements. It was clearly stated in the EPA approved 2003-2004 Work Plan that we were
going to improve our accounting and accountability practices for tracking the various programs that the
office was involved in.




                                                    12 

I had no knowledge of the time sheet requirement until the recent audit. I did not try to account for the
amount of time that I or my part-time 2-person staff spent per task. I considered the director position as
salaried as per grant specifications (approved work plan), so everything I did was directed toward the
final goal; to develop a sustainable tribal environmental program. The job descriptions for the director and
additional staff were plainly presented in every approved Work Plan. Many of these duties have implied
activities that are inherently necessary to accomplish those duties on a daily basis.


ACHIEVEMENTS

OEP was designed to assess and quantify the number of individuals living in, recreating in or otherwise
utilizing potentially dangerous environments, and to collect information regarding the past and present
status of household hazardous waste (HHW) management practices on the island. It was important to
select projects that were achievable and addressed local and regional concerns. As part of this effort,
grants were written, agreements were made with local, state, and federal agencies in order to implement
the following projects.

Health of the Beach (2001)

For the last 150 years the Wrangell shoreline has been intensely used for recreation, food gathering and
other commercial and personal use activities. In this environment everything ends up on the beach. OEP
was awarded funding ($52,000) through EPA’s Resource Conservation and Recovery Act (RCRA), to
collect cursory environmental baseline data. To implement the RCRA grant a Quality Assurance Project
Plan (QAPP) to test non-drinking water and sediment quality was approved by EPA (EXHIBIT A).

    •	   Conducted a marine proton magnetometer survey to delineate off-shore dump sites (EXHIBIT B).
    •	   Assessed beach sediments for a suite of several hundred potential toxins (EXHIBIT C).
    •	   Conducted run off water quality assessments.
    •	   Presented our IGAP program at the RCRA Annual National Convention, Washington, DC.
    •	   Presented water quality programs to the grade school.
    •	   A harbor crab assessment grant was written that was not funded, among others (EXHIBIT D, E).
         The quality assessment of crab taken from harbors for consumption is a regional imperative.

Hazardous Household Waste (HHW)

One of the more alarming observations derived during our initial assessment was that improper disposal
of HHW from 1000 single-family homes and waste from several small generators within a carrying
capacity of 510 acres is a potentially dangerous situation that is in large part, preventable.

RCRA funded OEP $30,500 to implement a household hazardous waste and small generator
contamination prevention program which was sponsored through Southeast Conference in partnership
with the Alaska Department of Environmental Conservation (ADEC) and the Alaska Marine Highway
System. ADEC, the Division of Statewide Public Service coordinate and facilitate this collection event.
OEP in cooperation with the city intend to remove as much HHW and small generator waste as possible
on a yearly basis by hazwoper certified personnel, and increase the level of awareness through continued
public education regarding hazardous waste issues. (This project is funded for 2002 and 2003).




                                                    13

Additional Projects (directed toward capacity and sustainability)

Fisheries Resource Monitoring Project
Two grants were approved for funding by the Federal Subsistence Board as a cooperative effort between
WCA (OEP), the USDA Forest Service, and the Alaska Department of Fish and Game. This $365,000,
three-year project, was managed in-part through OEP and employed 3-4 tribal members on a seasonal
basis. This project was directly related to regional environmental quality assessment concerns. Sockeye
stock status and trends were monitored at Thoms, Salmon Bay, and Luck Lake (FIS# 01-127), and
Virginia Lake (FIS# 01-179).

    •	 OEP received two new computers, administration costs, and offered the opportunity to get IGAP
       staff off the IGAP payroll for three to four months extending their yearly availability.
    •	 Project staff was required to keep a time sheet.

Bureau of Indian Affairs, Alaska Region
Grant Number E004400076. $25,000.00 to train a tribal member as a Temporary Water and Wastewater
Technician for the City of Wrangell. Education and training (capacity). The only effort expended by the
OEP office on this grant was to receive grant monies from BIA and pass them through to the City of
Wrangell.


Community Support

Catholic Community Services provided a pass-through grant to the tribe to supplement services to Native
elders. This grant was written by Catholic Community Services and their Juneau office completed all of
the required reports. The only effort expended by the OEP office on this grant was to receive grant
monies from Health and Human Services and pass them through to Catholic Community services.

Bureau of Indian Affairs, Indian Reservation Roads Program: This program provided funds for road
improvements in the community. Funds were reimbursed to the IGAP program for Tis Peterman’s time
spent on this project.

Both of these grants were considered part of the tribe’s capacity building efforts which were mandated by
IGAP.


Response to Recommendation 2: 

Inadequate and Untimely Performance Reports 


From April 2000 to February 2003 all quarterly performance reports were timely and accurate or you
would have heard from our Project Manager, Steve Torok. Mr. Torok knew the strengths and limitations
of the tribe and was able to make it work. Mr. Torok continually took it upon himself to contact all the
tribes he served of up-coming deadlines. Once Mr. Torok retired in 2002, communication with EPA was
poor at-best, which was only exacerbated by the Southeast Project Officer being located in Anchorage. I
can honestly say that after Mr. Torok left EPA, I received no more assistance what-so-ever from our
Project Officer. After I and Tis Peterman left the office in February of 2003, we had no more contact
with the office. All of our reports had been filed in a timely manner. What this finding is related to is the
lack of actions by the new staff hired by the Tribe after February of 2003 and has nothing to do with the
majority of the reporting periods. That Staff should be responsible for the program development or
reporting that did not occur. I am requesting the review Committee takes this into consideration.


                                                     14

Comment:

The audit report states that EPA was not notified of the change in staff at OEP, this is not correct. EPA
was notified in April 2003 (EXHIBIT F). According to available correspondence from April 2003, EPA
made it clear to OEP that quarterlies and other deliverables were due. After May 2003 there was minimal
communication between EPA and OEP, up until the enforcement letter mailed to OEP in May 2004, a full
year after EPA was notified that new personnel were in place, suggests that neither EPA nor OEP made
any effort to contact each other.

Response to Recommendation 3:
Inappropriate Cash Draws

”The recipient drew down EPA grant funds in advance of the actual need” (page 8, line 12). This is true,
because prior to electronic deposits becoming institutionalized, IGAP participants in 2000-02 were asked
by EPA to draw more down at one time to lessen the work load on the Grants Office who was struggling
to keep up with new tribal applications and requests. I am confident that IGAP Project Managers and their
superiors who worked with Southeast Alaska IGAP in the early 2000s remember this and could testify to
that fact. Regardless, draw downs were approved at several levels within EPA before being allocated to
the tribe. It was also my understanding at the time that bank interest accumulated on grant funds above
$33 was to be returned to the government. All funding was professionally allocated strictly according to
the grant, which is substantiated by the OIG forensic audit that found “no misappropriation of funds.”

In closing, we do not believe EPA was harmed in their negotiations with the Wrangell Cooperative
Association. The man-hours required to accomplish the projects described above far exceeds IGAPs
financial contribution. All of our projects were applicable to regional concerns and was consistent with
IGAPs mission statement. Thank you for your consideration, and we appreciate this opportunity to
comment.


Paul Rushmore and Tis Peterman
Wrangell Research Associates




                                                   15

                                                            Appendix C

                                    Distribution


EPA Region 10

     Acting Regional Administrator (Action Official)
       (Responsible for report distribution to recipient)
     Audit Followup Coordinator
     Grants Administration Unit Manager

EPA Headquarters

     Director, Grants Administration Division
     Director, Office of Grants and Debarment
     Agency Followup Official (the CFO)
     Agency Followup Coordinator
     Inspector General




                                              16

